                         WHITE PAPER



Providing Non-Bank Financial
Services for the Underserved

January 27, 2014




                     Report Number: RARC-WP-14-007
                                                               EXECUTIVE SUMMARY

 Providing Non-Bank Financial Services for
             the Underserved
Millions of Americans do not have a bank
                                                                     Highlights
account, or use costly services like payday
loans and check cashing exchanges just to             One in four U.S. households lives at
make ends meet. The entire underserved                least partially outside the financial
population comprises more than a quarter              mainstream — without bank accounts or
of all U.S. households — some 68 million              using costly services like payday
adults. They are an economically diverse              lenders.
mix of working and middle class families,
poor and unemployed people hurt by the                The average underserved household
recent economic crisis, young people,                 spends $2,412 each year just on interest
                                                      and fees for alternative financial
immigrants, and others who are trying to
                                                      services.
make it paycheck to paycheck. Together,
they represent a huge market. In 2012,                Postal financial services may appeal to
they spent about $89 billion just on interest         many customers who feel abandoned by
and fees for alternative financial services.          major financial institutions. Postal
                                                      organizations have an unmatched ability
The Postal Service is well positioned to              to reach consumers from diverse
provide non-bank financial services to                backgrounds.
those whose needs are not being met by
the traditional financial sector. It could         Many international posts are already
accomplish this largely by partnering with         garnering significant new revenue and
banks, who also could lend expertise as            keeping citizens connected by offering
                                                   financial services.
the Postal Service structures new
offerings. The Office of Inspector General         Financial services have been the single
is not suggesting that the Postal Service          best new opportunity for posts to earn
become a bank or openly compete with               additional revenue. For the Postal
banks. To the contrary, we are suggesting          Service, this might ultimately translate
that the Postal Service could greatly              into $8.9 billion per year.
complement banks’ offerings. The Postal
Service could help financial institutions fill the gaps in their efforts to reach the
underserved. While banks are closing branches all over the country, mostly in low-
income areas like rural communities and inner cities, the physical postal network is
ubiquitous. The Postal Service also is among the most trusted companies in America,
and trust is a critical element for implementing financial services. With affordable

U.S. Postal Service Office of Inspector General                                      January 27, 2014
                                                  i
RARC-WP-14-007                                         Providing Non-Bank Financial Services for the Underserved



financial offerings from the Postal Service, the underserved could collectively save
billions of dollars in exorbitant fees and interest. This could make a big difference to
struggling families — on average, people who filed for bankruptcy in 2012 were just $26
per month short of meeting their expenses.

Using posts to expand citizens’ financial options and access is not a novel idea; many
international posts already succeed in providing financial services. Much of their
success is due to the ubiquity of their networks and the trust the public places in them.
In addition, the U.S. Postal Service already offers some types of financial services, like
money orders and international money transfers, so it has an established presence.
Moreover, expanded financial offerings would be in the spirit of the organization’s
founding mission to support commerce and serve citizens.

This paper identifies specific opportunities for the Postal Service to offer non-bank
financial services. These services could include reloadable prepaid cards with features
that encourage people to save money, mobile transactions, and products that help the
underserved take part in e-commerce. They also could include new ways of transferring
money both domestically and internationally, and perhaps even include small loans that
would help customers overcome unexpected expenses. As society becomes
increasingly cashless, the Postal Service’s ability to provide a physical link to the new
digital economy will become more and more vital.

Many people could benefit from the Postal Service expanding its presence in the
financial services market. The millions of citizens currently struggling would have new
ways to conduct their financial transactions. Non-bank financial services from the Postal
Service could help these people to gain more financial security, and help foster a culture
of savings. In addition, by partnering with banks and other financial institutions, the
Postal Service could create a “win-win” situation. Postal financial services could
complement the current offerings from banks by helping banks reach customers in
geographic areas where they lack a physical presence, by offering products to
customers who were not previously a main focus of banks, and by helping some
customers transition to traditional bank savings or checking accounts. In addition,
financial services could result in major new revenue for the Postal Service. If even 10
percent of what the underserved currently spend on interest and fees instead went to
more affordable offerings from the Postal Service, it could lead to $8.9 billion in new
revenue per year.

A suite of financial services from the Postal Service could be a powerful new tool to help
the underserved become more financially secure. As a first step, the Postal Service
could explore services similar to those it is already authorized to provide, such as
money orders and international money transfers. In addition, small market tests in key
geographic areas could help to demonstrate new products’ viability. Although some
financial services may have a longer development period, others have the potential to
be a big hit right away. A quick victory or two could help garner stakeholder support for
additional postal financial services. There is a clear market need for innovative financial
products, and millions of families would benefit from more affordable solutions. The
Postal Service could be exactly what they are looking for.

U.S. Postal Service Office of Inspector General                                                January 27, 2014
                                                  ii
RARC-WP-14-007                                                               Providing Non-Bank Financial Services for the Underserved



                                                  Table of Contents
Introduction ..................................................................................................................... 1

Who are the Underserved? ............................................................................................. 2

The Postal Service is Well Suited to Provide Non-Bank Financial
Services .......................................................................................................................... 4
     Unmet Market Needs ................................................................................................. 5
     Competencies and Assets ......................................................................................... 6
     Public Purpose ........................................................................................................... 8
     Revenue Opportunity ................................................................................................. 9

The Postal Service Could Offer a Variety of Non-Bank Financial
Services .......................................................................................................................... 9
     Payment Services .................................................................................................... 10
     Products to Encourage Savings ............................................................................... 11
     Credit Services......................................................................................................... 12

Postal Financial Services Would Have Clear Benefits .................................................. 14
     Benefits for the Public .............................................................................................. 14
     Benefits for the Financial Services Community........................................................ 15
     Benefits for the Postal Service ................................................................................. 16

Strategic Considerations for the Postal Service ............................................................ 17
     Timing is a Critical Factor ........................................................................................ 17
     Consider Partnerships with the Private Sector ......................................................... 18
     Identify and Understand Key Customers ................................................................. 18
     Monitor and Respond to Emerging Trends .............................................................. 19
     The UPU International Financial System Might Offer Advantages ........................... 20

Conclusion .................................................................................................................... 21

                                                    Appendices
Appendix A                The Postal Savings System ................................................................. 22

Appendix B                Examples of Postal Financial Services ................................................ 24

Appendix C                Lessons Learned from International Posts .......................................... 25


U.S. Postal Service Office of Inspector General                                                                      January 27, 2014
                                                                 iii
RARC-WP-14-007                                                          Providing Non-Bank Financial Services for the Underserved



                                                       Tables
Table 1                   Examples of Postal Financial Services ................................................ 24

Table 2                   How Have Posts Made Financial Services Successful? ...................... 26

                                                      Figures
Figure 1                  Banked Status of U.S. Households ....................................................... 2

Figure 2                  Reasons for Being Unbanked ................................................................ 3

Figure 3                  Guiding Principles for New Products ..................................................... 5

Figure 4                  Post Offices vs. Bank Branches ............................................................ 6

Figure 5                  Postal Card as Linchpin to Financial Offerings .................................... 10

Figure 6                  Payday vs. Postal Loans ..................................................................... 13

Figure 7                  The Growth of the Underserved Market .............................................. 16

Figure 8                  Financial Services at Foreign Posts .................................................... 25




U.S. Postal Service Office of Inspector General                                                                 January 27, 2014
                                                              iv
RARC-WP-14-007                                                    Providing Non-Bank Financial Services for the Underserved




    Providing Non-Bank Financial Services for
                the Underserved

Introduction
Banks and other financial institutions play a critical role in American society. Accounts at
federally insured depository institutions provide safety and security, protect households
from theft, help families save money, and can open the door to affordable credit. Yet,
more than a quarter of American households are left outside or on the fringes of the
traditional financial system. Some have no bank account whatsoever. Others have a
checking account, but do not qualify for traditional forms of credit, forcing them to use
costly services like payday loans and car title loans — which can often do more harm
than good. Many of the 34 million financially underserved households — representing
68 million adults — are treading water very close to the economic edge. 1 Unexpected
expenses can push them over the brink into homelessness or bankruptcy, which come
with broad social and economic costs. In addition to this at-risk population, there are
many other Americans who are simply looking for new financial options.

Many interested parties have been trying for years to bring the underserved into the
traditional financial system, and have made progress. In 2005, Congress required the
Federal Deposit Insurance Corporation (FDIC) to conduct biennial surveys of the
financial habits of underserved Americans and banks’ efforts to reach them. 2 These
reports provide strong evidence that the unmet need for banking services is nationally
wide and deep. In many countries, policymakers have turned to postal organizations to
increase the level of financial inclusion. While federal law currently places restrictions on
new non-postal products and services, the U.S. Postal Service already offers money
orders, international money transfers, and other relevant financial products.

This paper aims to explain how the Postal Service could expand its offerings to include
a broader suite of non-bank financial services and products. These new offerings could
not only bring financial stability and flexibility to the underserved, but also could yield
broad benefits to the U.S. economy, the financial services industry, and the Postal
Service itself. We contracted with a team of experts in the U.S. financial services
industry, international postal operations, and other relevant areas to help conduct our
analysis. 3

1
  Federal Deposit Insurance Corp. (FDIC), 2011 FDIC National Survey of Unbanked and Underbanked Households,
September 2012, http://www.fdic.gov/householdsurvey/2012_unbankedreport.pdf, pp. 4-10.
2
  Both studies are available on the FDIC’s website at http://www.fdic.gov/unbankedsurveys/ and
http://www.fdic.gov/householdsurvey/.
3
  For this project we contracted with Decision/Analysis Partners, who assembled a team of experts including: Hans
Boon, a world-renowned expert on postal operations and financial inclusion strategies who has helped implement
postal financial services in various countries, formerly with ING and the Netherlands Postbank; Jean Philippe
Ducasse, an expert on postal strategies, formerly with the European Commission, La Poste, and the Universal Postal
Union (UPU); James Pérez Foster, a former VP with Merrill Lynch and Morgan Stanley Smith Barney, who has recent
experience as an expert on banking services for underserved communities; and Ana Harvey, the former head of the
Small Business Administration’s Office of Women’s Business Ownership.

U.S. Postal Service Office of Inspector General                                                           January 27, 2014
                                                        1
RARC-WP-14-007                                                    Providing Non-Bank Financial Services for the Underserved



Who are the Underserved?
The underserved are a geographically, economically, and demographically diverse
group of people who, by choice or circumstance, operate partially or completely outside
                                                          the traditional banking system. We
    Figure 1: Banked Status of U.S. Households            define underserved as primarily
                                                          consisting of two main groups: the
 LEFT OUT                                                 unbanked, who have no checking
 More than a quarter of U.S. households live partially or or savings account, and the
 completely outside the traditional banking system.       underbanked, who have a bank
                                                          account but also used at least one
                                                          non-bank financial service during
          Under-                                          the past year. These non-bank
          banked                                          financial services include check
            20%                                           cashing, money orders,
                                                          remittances, payday lending,
                                                          pawnshops, rent-to-own
                                                          agreements, and other similar
                                                          products and services. We refer to
Unbanked                                                  them in this paper as “alternative
   8%                                                     financial services.” In addition,
                                                          there also are many fully-banked
    Banked,
   but under-                                             consumers who are unhappy with
    banked                                                their current options and are
     status                                      Fully    seeking alternatives.
       unclear                                        banked
         3%                                           There are about 34 million
                                                       69%
                                                      underserved U.S. households,
  Source: 2011 FDIC National Survey of Unbanked and   comprising more than a quarter of
           Underbanked Households.                    all American families, as Figure 1
                                                      illustrates. Being underserved
often comes at a hefty price. The average underserved household has an annual
income of about $25,500 and spends about $2,412 of that just on alternative financial
services fees and interest. 4 That amounts to 9.5 percent of their income. To put that into
perspective, that is about the same portion of income that the average American
household spends on food in one year. 5 In 2012 alone, the underserved paid some $89
billion in fees and interest. 6




4
  Based on 34 million households, earning an average of $25,500 per year, spending a total of $82 billion in 2011.
KPMG, Serving the Underserved Market, 2011,
http://www.kpmg.com/US/en/IssuesAndInsights/ArticlesPublications/Documents/serving-underserved-market.pdf, p.1,
and Center for Financial Services Innovation (CFSI), 2012 Financially Underserved Market Size Study, December
2013, http://www.cfsinnovation.com/content/2012-financially-underserved-market-sizing-study, p.1.
5
  Based on average before tax income of $65,596 and average food expenditures of $6,599. Bureau of Labor
Statistics, Consumer Expenditure Survey, 2012, http://www.bls.gov/cex/2012/combined/income.pdf, p. 1.
6
  CFSI, 2012 Financially Underserved Market Size Study, p.1.

U.S. Postal Service Office of Inspector General                                                           January 27, 2014
                                                        2
RARC-WP-14-007                                                              Providing Non-Bank Financial Services for the Underserved



People are unbanked for a wide range of reasons. 7 Figure 2 gives a breakdown of the
key reasons people cite for their unbanked status.



                                    Figure 2: Reasons for Being Unbanked

            UNBANKED HAVE DIVERSE REASONS
            When asked why they don't have a bank account, 46 percent of the unbanked said they couldn't
            use banks, either because they don't have enough money, don't meet the requirements, or banks
            closed their account. Twenty-nine percent said they don't want, need, like, or trust banks.

                                  Don't have enough money                                                   32.7%



                             Don't need or want an account                                  21.0%



            Don’t like dealing with and/or don’t trust banks          7.5%


                Can’t open an account due to ID, credit, or                     Percent of the unbanked
                                                                     6.6%
                        banking history problems


         Previously had an account but the bank closed it            6.4%



          Bank fees or balance requirements are too high            5.4%



                                    Other/none of the above                         16.3%



                                        Do not know/refused        4.3%


                  Source: 2011 FDIC National Survey of Unbanked and Underbanked Households.




According to the FDIC, certain segments of the population are disproportionately
underserved, including lower-income, black, and Hispanic households, as well as
people under the age of 25. However, white households still account for half of the
underserved. Geographically, the underserved live throughout the country. However,
they are over-represented in the South, where poverty is more prevalent, and in inner
cities. 8


7
  While the FDIC found that the most common reason people do not have a bank account is that they do not have
enough money, a separate survey by the Federal Reserve found another leading cause: 24 percent of respondents
said they do not have a bank account because: “I don’t like dealing with banks.” Board of Governors of the Federal
Reserve System, Consumers and Mobile Financial Services, March 2012,
http://www.federalreserve.gov/econresdata/mobile-devices/2012-appendix2.htm, Appendix 2.
8
  FDIC, 2011 FDIC National Survey of Unbanked and Underbanked Households, p.15.

U.S. Postal Service Office of Inspector General                                                                     January 27, 2014
                                                               3
RARC-WP-14-007                                                  Providing Non-Bank Financial Services for the Underserved



There also is a fair amount of economic diversity within the underserved population.
While a bit more than half of underserved households earn less than $30,000 a year,
more than a quarter earn at least $50,000. A full 57 percent are employed, just 10
percent are unemployed, and a third are not in the labor force — often because they are
on disability or retired. Nearly half of the underserved have attended at least some level
of college. 9

The underserved tend to have very little savings.         Most payday loans carry
Just one unexpected expense, such as a car repair         extremely high fees that
or a medical procedure, can quickly become a major        equate to an average annual
crisis, forcing them to seek credit from the likes of     interest rate of 391 percent.
payday lenders or worse. Payday loans are
advertised as loans that must be repaid with the borrower’s next paycheck. However,
most borrowers cannot afford to pay the loan back in full, so they renew the loan
repeatedly and are in debt for an average of 5 months of the year, all the while paying
fees that typically equate to a 391 percent annual interest rate. 10

Rather than giving borrowers the credit they need to climb out of a hole, these types of
loans often dig borrowers deeper into debt. Research has shown that a majority of
payday loan users are borrowing money for everyday expenses, rather than unexpected
emergencies. 11 In essence, these consumers rely on overly expensive short term credit
to balance out the ups and downs of their finances. This suggests a strong need for
financial services that are more stable and affordable.

The Postal Service is Well Suited to Provide Non-Bank
Financial Services
The Postal Service is an ideal fit for offering non-bank financial services, based on four
basic guiding principles for potential new products. Figure 3, on the following page,
highlights these four principles, each of which is explained below in more detail.




9
  Ibid.
10
   Pew Charitable Trusts, Payday Lending in America: Who Borrows, Where They Borrow, and Why, July 2012,
http://www.pewstates.org/uploadedFiles/PCS_Assets/2012/Pew_Payday_Lending_Report.pdf, pp. 6-7.
11
   Ibid., p.13.

U.S. Postal Service Office of Inspector General                                                         January 27, 2014
                                                      4
RARC-WP-14-007                                                     Providing Non-Bank Financial Services for the Underserved



                                  Figure 3: Guiding Principles for New Products




Unmet Market Needs
There are many non-profits, financial advocacy groups, and government entities
focused on improving financial access. While they have made significant strides, there
is still a tremendous unmet market demand for financial services. As mentioned above,
28 percent of all U.S. households are either unbanked or underbanked. Millions of
additional adults are open to new financial service options. In the current market, these
people are missing the financial services they want and need.

Banks are closing branches across the country (nearly 2,300 in 2012). 12 Although the
number of closings is only a fraction of the total number of branches, the closings are
not spread evenly. The closings are heavily hitting low-income communities, including
rural and inner-city areas — the places where many of the underserved live. 13 In fact,
an astounding 93 percent of the bank branch closings since late 2008 have been in ZIP
Codes with below-national median household income levels. 14 This leaves some
communities stranded without physical access to quality financial services, and the
problem could get much worse. Banking industry experts predict that banks will
continue to shut branches, particularly in small communities. 15

Even in neighborhoods that still have bank branches, there is no guarantee that the
underserved will find what they need. Less than half (43 percent) of banks reported that
they actively develop products and services for underserved consumers. 16 While free
checking used to be a widespread offering from banks, it has become much less
12
   Robin Sidel, “After Years of Growth, Banks are Pruning Their Branches,” The Wall Street Journal, March 13, 2013,
http://online.wsj.com/article/SB10001424127887323699704578326894146325274.html.
13
   Nelson D. Schwartz, “Bank Closings Tilt Toward Poor Areas,” The New York Times, Feb. 22, 2011,
http://www.nytimes.com/2011/02/23/business/23banks.html?pagewanted=all&_r=0, and David Hayes, et.al., “Banks
Follow the Money and Exit Lower-Income Areas,” SNL Financial, April 27, 2012,
http://www.snl.com/InteractiveX/ArticleAbstract.aspx?id=14485078.
14
   Frank Bass and Dakin Campbell, “Predator Targets Hit as Banks Shut Branches Amid Profits,” Bloomberg, May 2,
2013, http://www.bloomberg.com/news/2013-05-02/post-crash-branch-closings-hit-hardest-in-poor-u-s-areas.html.
15
   Robin Sidel, “After Years of Growth, Banks are Pruning Their Branches,” The Wall Street Journal.
16
   FDIC, 2011 FDIC Survey of Banks’ Efforts to Serve the Unbanked and Underbanked, 2012,
http://www.fdic.gov/unbankedsurveys/2011survey/2011report.pdf, p. 4.

U.S. Postal Service Office of Inspector General                                                            January 27, 2014
                                                         5
RARC-WP-14-007                                                  Providing Non-Bank Financial Services for the Underserved



common. At the same time, banks have continued to increase existing fees and
introduce new fees across a wide range of products and services. 17

Competencies and Assets
The Postal Service has numerous competencies and assets that would be critical for
providing non-bank financial services. The first and possibly most important factor is the
                                                               sheer ubiquity of the Postal
                                                               Service. The vast retail network
          Figure 4: Post Offices vs. Bank Branches             of more than 35,000 Post
                                                               Offices, stations, branches,
    MOST POST OFFICES ARE IN                                   and contract units is spread out
                                                               across the country and is
    BANK DESERTS                                               particularly well established in
    Fifty-nine percent of internally-managed Post Offices      small towns. Banks and other
    are in ZIP Codes with zero or one bank branch,             financial institutions still
    illustrating that the Postal Service is geographically
                                                               maintain tens of thousands of
    well-positioned to reach people with little-to-no access
    to retail banking services.                                branches and other locations
                                                               across the country, but that
                                                               network is fragmented among
                                                   POs in ZIPs
                                                     with no
                                                               thousands of players and is
                                                      banks    inextricably linked to population
                                                       38%     density and centers of
                                                               economic growth. The postal
                                                               network, on the other hand, is
 POs in ZIPs                                                   a single, unified network that is
 with at least                                                 linked to geography. As Figure
   2 banks
      41%                                                      4 shows, 59 percent of Post
                                                               Offices are in ZIP Codes with
                                                               one or no bank branches.

                                                                       A second factor is Americans’
                                                                       trust and familiarity with the
                                                                       postal “brand.” Trust is a
                                                                       crucial asset in financial
                                                  POs in ZIPs          services, especially when
                                                  with 1 bank          considering bank-wary
                                                      21%              unbanked and underbanked
     Note: Excludes Post Offices with unique ZIP Codes.                households that have been
                                                                       dealing with sometimes
     Sources: FDIC 2013 Summary of Deposits; Postal                    untrustworthy alternative
              Service facilities database.
                                                                       financial services providers.

While banks operate efficiently and can reliably handle most consumers’ financial
transactions, the public’s trust in banks to protect their personal information has
17
  Richard Barrington, “Bank Fees Survey Mid-2013: Free Checking Hits a New Low,” MoneyRates.com, August 19,
2013, http://www.money-rates.com/research-center/bank-fees/.

U.S. Postal Service Office of Inspector General                                                         January 27, 2014
                                                     6
RARC-WP-14-007                                                      Providing Non-Bank Financial Services for the Underserved



declined since 2004, dropping from 48 to only 35 percent in that time. 18 In addition, a
June 2013 survey found that only 26 percent of the public has much confidence in U.S.
banks, and that this number has not risen above 40 percent since 2007. 19

On the other hand, a recent market survey found
that 68 percent of respondents agree or strongly          The public puts much greater
agree that the Postal Service is reliable and             trust in the Postal Service than
             20                                           in banks. While more than two-
trustworthy. When it comes to privacy, the
Postal Service is consistently ranked as the most         thirds of the public trusts the
trusted federal entity, and was recently identified       Postal Service, just 26 percent
                                                          have much confidence in banks.
as the fourth most trusted company in the United
        21
States. The public’s trust in the Postal Service
could go a long way when it comes to serving customers looking for new financial
solutions, as trust has been identified as a critical factor in successfully implementing
financial services. 22

In addition, the Postal Service has extensive experience in the financial services market
through current and past products. By offering these products and services, the Postal
Service has accumulated essential institutional experience with financial transactions.

Current Products and Services
The Postal Service has played a longstanding role in providing domestic and
international money orders. The Postal Service is actually the leader in the U.S.
domestic paper money order market, with an approximately 70 percent market share. 23
This is a lucrative business line and demonstrates that the Postal Service already has a
direct connection to the underserved, who purchased 109 million money orders in fiscal
year (FY) 2012. Those sales generated $166.3 million in revenue and incurred
attributable costs of just $110.5 million. 24 The market is gradually shrinking, however, in
competition with electronic money transfer alternatives. 25 In addition to domestic money


18
   Ponemon Institute, Most Trusted Retail Banks for Privacy, October 10, 2013,
http://www.ponemon.org/local/upload/file/2013%20MTC%20Banking%20Briefing%20V2.pdf, p. 5.
19
   Dennis Jacobe, Gallup, Americans’ Confidence in Banks Up for First Time in Years, June 13, 2013,
http://www.gallup.com/poll/163073/americans-confidence-banks-first-time-years.aspx.
20
   Aytm, United States Postal Service Brand Survey, April 21, 2012,
https://aytm.com/surveys/167290/stat/7a700df2ff4221ec54cc4e2049f01b7f#charts/chart=pie,color=0.
21
   Ponemon Institute, 2012 Most Trusted Companies for Privacy, January 28, 2013,
http://www.ponemon.org/local/upload/file/2012%20MTC%20Report%20FINAL.pdf.
22
   Alexandre Berthaud and Gisela Davico, Global Panorama on Postal Financial Inclusion: Business Models and Key
Issues, UPU, March 2013,
http://www.upu.int/fileadmin/documentsFiles/activities/financialInclusion/publicationGlobalPanoramaFinancialInclusio
nEn.pdf, p. 7.
23
   U.S. Postal Service Office of Inspector General (OIG), Digital Currency: Opportunities for the Postal Service,
RARC-WP-12-001, October 3, 2011, http://www.uspsoig.gov/sites/default/files/document-library-files/2013/RARC-
WP-12-001.pdf, p. 31.
24
   U.S. Postal Service, “Public Cost and Revenue Analysis, Fiscal Year 2012,” http://about.usps.com/who-we-
are/financials/cost-revenue-analysis-reports/fy2012.pdf, pp. 2, 5.
25
   Fiscal year revenues were $191.1 million in 2009, $183.2 million in 2010, and $172.7 million in 2011. U.S. Postal
Service, “Public Cost and Revenue Analysis, Fiscal Years 2009 to 2011,” available at http://about.usps.com/who-we-
are/financials/welcome.htm.

U.S. Postal Service Office of Inspector General                                                             January 27, 2014
                                                         7
RARC-WP-14-007                                                      Providing Non-Bank Financial Services for the Underserved



orders, the Postal Service also sells international money orders, which can be cashed at
post offices in 29 countries. 26

While its domestic and international money orders are currently paper-based, the Postal
Service does offer electronic money transfers to nine Latin American countries through
the Dinero Seguro® (Spanish for “sure money”) service. 27 This type of service is also
known as an international remittance. For relatively small fees, customers at nearly
3,000 participating U.S. Post Offices can use the service to electronically transfer funds
to participating countries. 28

Since 2011, the Postal Service has sold prepaid debit cards in the form of open-loop
American Express gift cards as part of a market test. 29 Most Post Offices that sell
greeting cards also sell the gift cards, which come in various denominations and can be
spent at any merchant that accepts American Express. After an initial one-time
purchase charge, the cards have no additional fees for purchasers or recipients. The
Postal Service has extended the market test past the initial 2-year period, and
expanded the scope of the test to include the sale of closed-loop gift cards for major
national retailers like Amazon, Barnes & Noble, Subway, and Macy’s. 30

Postal Savings System
In addition to its current offerings, the Postal Service has offered other products and
services in the past. For example, from 1911 to 1967, the Postal Savings System gave
people the opportunity to make savings deposits at designated Post Offices nationwide.
The system hit its peak in 1947 with nearly $3.4 billion in savings deposits from more
than 4 million customers using more than 8,100 postal units. The system was
discontinued in 1967 after a long decline in usage. 31 Interestingly, the system was
extraordinarily popular with immigrants in the early 20th century. For more information
on the Postal Savings System, please see Appendix A.

Public Purpose
By offering non-bank financial services, the Postal Service could fulfill an essential
public purpose: increasing the level of financial inclusion in the United States and
expanding the number of alternatives for all consumers. Promoting the financial health
of all citizens and meeting the needs of the unbanked are longstanding federal
26
   U.S. Postal Service, USPS.com: “Learn About Domestic & International Money Orders,”
https://www.usps.com/shop/money-orders.htm.
27
   For a list of participating countries, see https://www.usps.com/shop/wire-money-internationally.htm.
28
   U.S. Postal Service, “Send Money Home Securely with ‘Dinero Seguro,’” March 20, 2013,
http://about.usps.com/news/state-releases/ma/2013/ct-ma_2013_0320.htm.
29
   Open-loop cards are endorsed by an electronic payment network such as Visa or MasterCard, and are usable for
in-store or online payments everywhere the network is accepted. Closed-loop cards are limited to a specific
merchant. For more information on the Postal Service’s gift cards, please see U.S. Postal Service, “Gift Cards Market
Test Launch,” 2011, http://about.usps.com/postal-bulletin/2011/pb22313/html/info_005.htm.
30
   “Order Granting Extension of Gift Card Market Test,” Postal Regulatory Commission Order No.1781, July 19, 2013,
http://www.prc.gov/Docs/87/87368/Order_1781.pdf, and David Rubin, Postal Regulatory Commission data collection
report for docket No. MT2011-2, October 18, 2013,
http://www.prc.gov/Docs/88/88034/Data%20Coll%20Rpt%20FY13%20Q3-4%20Final.pdf.
31
   U.S. Postal Service, Postal Savings System, July 2008, http://about.usps.com/who-we-are/postal-history/postal-
savings-system.pdf.

U.S. Postal Service Office of Inspector General                                                             January 27, 2014
                                                         8
RARC-WP-14-007                                                       Providing Non-Bank Financial Services for the Underserved



priorities. 32 Postal financial services could assist underserved families in making steps
toward the mainstream financial system, possibly building up savings, and eventually
embracing offerings from traditional retail banks. Moreover, postal financial services
would fit well with the Postal Service’s founding mission to serve citizens and support
the growth of commerce. 33

Revenue Opportunity
Financial services are the single biggest driver of revenue for
posts around the world, after letter mail. 34 Declining mail volume    Postal financial
                                                                       services are the
has led many posts to find new ways to diversify their income,
                                                                       single best
and financial services have been an even greater source of new         opportunity for
money than parcel delivery and logistics, accounting for an            new revenue.
average of 14.5 percent of revenue for postal organizations in
industrialized countries in 2012. 35 A nationwide network of Post
Offices that serve as highly valuable retail space further boosts the potential for financial
services revenue.

New products and services generally take a while to develop, but startup and
implementation pains could be minimized by forming partnerships with private sector
organizations in the financial services industry. 36

The Postal Service Could Offer a Variety of Non-Bank
Financial Services
The underserved are looking for new financial products and services. Banks and other
institutions are looking for partners with unique assets and capabilities. By offering a
suite of non-bank financial services, the Postal Service could help give both groups
what they are looking for. Utilizing public-private partnerships, a financial services
platform offered by the Postal Service could serve as a critical physical link for
customers in every community, providing a bridge to 21st century electronic
transactions. The 2006 Postal Accountability and Enhancement Act (PAEA) generally
prohibits the Postal Service from offering new nonpostal services. 37 However, given that
the Postal Service is already providing money orders and other types of non-bank
financial services, it could explore additional options within its existing authority.

32
   Some examples include the Federal Deposit Insurance Act of 1950, the 1968 Consumer Credit Protection Act, the
1977 Community Reinvestment Act, the Credit CARD Act of 2009, and the 2010 Dodd-Frank Wall Street Reform &
Consumer Protection Act.
33
   USPS OIG, Meeting America’s Emerging Communications Needs, RARC-WP-12-009, April 27, 2012,
https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-12-009.pdf, p. 12.
34
   UPU, Development Strategies for the Postal Sector: An Economic Perspective, 2013, p. 28.
35
   Ibid.; Consumer Postal Council, Universal Postal Service in Major Economies, November 2013,
http://www.postalconsumers.org/uploads/1/Universal_Postal_Service_Nov_13_Final_02_DS.pdf, p. i; and UPU,
Development of Postal Services in 2012, October 2013,
http://www.upu.int/fileadmin/documentsFiles/resources/postalStatistics/results2012PostalStatisticsEn.pdf, p. 22.
36
   For information on public-private partnerships, see U.S. Postal Service Office of Inspector General, Public-Private
Partnerships: Best Practices and Opportunities for the Postal Service, RARC-WP-13-011, June 24, 2013,
http://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-13-011.pdf.
37
   39 U.S.C § 404(e)(2).

U.S. Postal Service Office of Inspector General                                                              January 27, 2014
                                                          9
RARC-WP-14-007                                                      Providing Non-Bank Financial Services for the Underserved



Postal financial services largely fall into three basic categories: payment services, ways
to encourage savings, and credit services. Examples of services the Postal Service
could offer in each category are discussed below. For information on additional potential
services, please see Appendix B.

Payment Services
Payment services are likely the products with the lowest barriers to entry for the Postal
Service, as they are the most similar to what the organization already offers. They
generally do not require a major capital investment, and are full of opportunities to
partner with banks. These payment services might include electronic money orders, bill
payments, facilitating e-commerce payments, and other services.

A cornerstone of this product line could be a Postal Service branded open-loop
reloadable prepaid card, perhaps called the Postal Card (see Figure 5). 38 Users could
load cash or their paychecks onto the card, and then use it to withdraw cash, pay bills,
and send or receive international remittances. With the development of highly secure
identity verification systems and partnerships with government at the local, state, and
federal levels, the cards also could send or receive tax payments and refunds, as well
as handle other government-to-citizen or citizen-to-government payments. Such a
product would not only help reduce the government costs associated with cash and
check payments, it also would help fulfill the goal of bringing the underserved into the
mainstream financial fold. The funds on Postal Cards could be covered by the FDIC
insurance of a partner bank.

                           Figure 5: Postal Card as Linchpin to Financial Offerings




For the dwindling number of consumers with paper checks, the Postal Service could
offer basic check cashing services, with the option to put the money on a Postal Card. 39
Post Offices also could be equipped with automated teller machines (ATMs) where
customers can withdraw or add money to their cards. The Postal Card also could be
38
   For more information on Postal Service payment cards, as well as related payment services and digital currencies,
see USPS OIG, Digital Currency: Opportunities for the Postal Service, RARC-WP-12-001, October 3, 2011, and
USPS OIG, The USPS Global Card: A Conceptual Analysis of a Smart Card Platform, RARC-WP-12-006, February
13, 2012.
39
   Federal Reserve System, The 2010 Federal Reserve Payments Study - Noncash Payment Trends in the United
States: 2006 – 2009, 2011, http://www.frbservices.org/files/communications/pdf/research/2010_payments_study.pdf,
p. 11.

U.S. Postal Service Office of Inspector General                                                             January 27, 2014
                                                        10
RARC-WP-14-007                                                    Providing Non-Bank Financial Services for the Underserved



tied to a major surcharge-free ATM network, which would allow customers to withdraw
cash from tens of thousands of ATMs nationwide without paying a fee.

In addition, the Postal Service could integrate online and mobile technologies with the
payment services. People could log into their online Postal Service prepaid card
account to check balances, transfer funds, pay bills, and so on. A smartphone app could
allow customers to load paper checks onto their card by taking a picture of the checks
with their phone, just like they can at most major banks.

Reloadable prepaid cards are soaring in popularity with the underserved, who like the
convenience the cards provide. 40 Consumers used prepaid cards for $9.2 billion in
purchases in 2012, up 56 percent from 2009. 41 However, the prepaid card market is
highly fragmented, with many large and small players offering cards with a range of
features. Many cards come with high fees that can sting unsavvy consumers. There is
room in the marketplace for the Postal Service to offer a more transparent, affordable
option that is tied to a ubiquitous physical distribution network of Post Offices, likely in
partnership with banks.

Products to Encourage Savings
As part of its suite of products, the Postal Service could partner with a bank to offer an
interest-bearing savings feature on the Postal Card, which would encourage the
underserved to build up a reserve for emergencies or to save for big purchases, such as
a home or car. The Postal Service also could incentivize customers to divert a small
portion of each paycheck into a savings vehicle tied to their card.

Many Americans do not have enough money saved to help them through a crisis. In
fact, only half of American adults have readily available savings to cover their expenses
for 3 months or longer. Twenty-seven percent of American adults have no emergency
savings whatsoever. 42 This widespread lack of savings leaves many people highly
vulnerable.

Research shows that the underserved tend to have significantly less savings than the
fully banked. However, this is largely due to a lack of disposable income among the
underserved, whose regular monthly expenses essentially account for their entire
paycheck. In fact, 25 percent of adults who work full-time do not make enough money to
meet the basic needs of their families. 43 Through less expensive financial products and
a savings feature linked to the Postal Card, the Postal Service could help bring

40
   See Bretton Woods, Inc., Analysis of Branded General Purpose Reloadable Prepaid Cards, Basic Checking
Accounts and Check Cashing, February 2012; Robert M. Hunt, et. al., for the Federal Reserve Bank of Philadelphia;
CFSI, Consumers’ Use of Prepaid Cards: A Transaction-Based Analysis, August 2012; Mercator Advisory Group,
U.S. Prepaid Cards Market Forecasts, 2012-2015, October 2012; and FDIC 2011 National Survey of Unbanked and
Underbanked Households, p. 35.
41
   Federal Reserve System, The 2013 Federal Reserve Payments Study, December 19, 2013,
http://www.frbservices.org/files/communications/pdf/research/2013_payments_study_summary.pdf, p. 12.
42
   Bankrate, June 2013 Financial Security Index Charts, http://www.bankrate.com/finance/consumer-index/financial-
security-charts-0613.aspx.
43
   CFPB, Empowering Low Income and Economically Vulnerable Consumers, November 2013,
http://files.consumerfinance.gov/f/201311_cfpb_report_empowering-economically-vulnerable-consumers.pdf, p. 39.

U.S. Postal Service Office of Inspector General                                                           January 27, 2014
                                                       11
RARC-WP-14-007                                                        Providing Non-Bank Financial Services for the Underserved



significant financial stability to millions of Americans, allowing them to pay their bills and
avoid eviction, foreclosure, and other socially and economically expensive ills. This, in
turn, would help the underserved improve their credit, so that they could one day join
the ranks of the fully banked by moving to a traditional savings or checking account.

Credit Services
Generally, banks do not make small personal loans — even to highly creditworthy
borrowers. That is because small loans cost about as much to underwrite and service
as larger loans, but bring in a fraction of the revenue. So when someone needs a few
hundred dollars to pay for an unexpected expense, they instead turn to credit cards.
                          However, the underserved (and especially the unbanked) often
  An affordable loan      cannot get credit cards because they have bad or nonexistent
  from the Postal         credit histories, which make them a high credit risk under
  Service could           typical underwriting models.
     save American
     families from     Without access to traditional credit, the underserved often turn
     having to depend  to alternative lenders, which charge high interest rates, fees, or
     on costly servicesboth in part to compensate for the riskiness of their borrowers,
     like payday loans.
                       who are more likely to default on their loans. 44 Generally,
                       payday lenders require borrowers to have a checking account.
This leaves the unbanked with even fewer options for credit, forcing them to go to
pawnshops or even loan sharks. 45

In this landscape with scant affordable lending options for the underserved, the Postal
Service has a tremendous opportunity to offer small loans that could save borrowers a
lot of money — billions of dollars when aggregated across all potential users — which
they could spend on more productive things like rent, groceries, utilities, and mortgage
and student loan payments. This would, in turn, help the overall economy.

Here is a purely hypothetical example of how a “Postal Loan” could work. Postal Loans
would be available to people who have their paychecks directly loaded onto their Postal
Service prepaid card (this also could be for government payments, such as Social
Security or disability benefits) and have received at least two straight payments. For
those whose employers do not offer electronic transfer, they could be eligible for a loan
if they load at least two consecutive paychecks onto a Postal Service prepaid card. 46




44
   The Consumer Financial Protection Bureau (CFPB) has begun to issue regulations affecting alternative financial
services. For more information, see http://www.consumerfinance.gov/regulations/. See also Congressional Research
Service, The Consumer Financial Protection Bureau (CFPB): A Legal Analysis, 2012, and A Brief Overview of
Actions Taken by the Consumer Financial Protection Bureau (CFPB) in Its First Year, 2012.
45
   A loan shark is “a moneylender who charges extremely high rates of interest, typically under illegal conditions.” See
http://www.oxforddictionaries.com/us/definition/american_english/loan-shark.
46
   Ideally, front line Postal Service employees would collect and verify borrowers’ information and identities, but would
not make credit decisions. Such decisions would be made by a computer model and overseen by financial experts.

U.S. Postal Service Office of Inspector General                                                               January 27, 2014
                                                          12
RARC-WP-14-007                                                           Providing Non-Bank Financial Services for the Underserved



People could borrow up to 50                                   Figure 6: Payday vs. Postal Loans
percent of their gross paycheck.
For a person who earns $18,000                        A PAYDAY LOAN ALTERNATIVE
per year and gets paid twice a                        The average payday loan of $375 costs consumers an
month, that is $375. Every                            average of $520 over the life of the loan. A postal loan
borrower could be required to                         for the same amount could cost just $48, leaving
pay a minimum of 5 percent of                         already cash-strapped borrowers with more money in
                                                      their pockets to pay other bills and lift themselves up
their gross pay from each
                                                      by their own bootstraps.
paycheck until the loan is paid
off. In this scenario, that would
                                                                                                Payday         Postal
be $38 from each paycheck. 47
The Postal Service would                                Loan amount                               $375           $375
automatically withhold loan                             Average months to repay                    4.5            5.5
payments from borrowers’                                Average bi-monthly payment                $99            $38
paychecks before putting the                            Total interest and fees                   $520           $48
difference on their Postal Card. If                     Effective annual interest rate*          391%            28%
the Postal Service charged a $25
upfront loan fee and a 25 percent                     *Formula used to translate payday fees into an annual
interest rate, the borrower would                             interest rate: (Interest & Fees / Loan Amount) /
                                                              (Loan Days / 365) * 100.
pay off the loan in 5 ½ months,
paying a total of $48 in interest                     Source: Pew Charitable Trusts, Safe Small-Dollar Loans
and fees across the life of the                               Research Project, 2013.
loan. 48

That is less than a tenth of the fees charged for a typical payday loan of the same size
(see Figure 6). 49 That single loan from the Postal Service could effectively put $472
back into a consumer’s pocket, which he or she could then use on more economically
productive expenses. If even one-tenth of the 12 million Americans who take out a
payday loan each year got this hypothetical Postal Loan instead, they could collectively
                                   save more than half a billion dollars a year in fees and
  Postal Loans could save          interest. 50 And that is to say nothing of the benefits
  Americans hundreds of            Postal Loans could bring to the 10 million unbanked
  millions of dollars each         U.S. households which cannot even get payday loans.
     year, money they
     currently spend on paying                    What happens if a Postal Loan borrower stops making
     high fees and interest.                      payments on her loan? After diligent follow-up, the
                                                  Postal Service could potentially utilize the Treasury

47
   Studies show that most payday borrowers can afford to pay no more than 5 percent of their income toward debt
payments and still have enough money left over to cover their expenses. For more information, see Pew Charitable
Trusts’ Safe Small-Dollar Loans Research Project.
48
   Based on two paychecks a month. When including fees, the effective annual interest rate would be 28 percent,
using the payday lending method of interest calculation. While this is a higher rate than a traditional consumer loan, it
is significantly lower than virtually all other options available to those who do not qualify for traditional credit.
However, the rate reflects the inherent challenges in dealing with a high-risk segment of consumers. This interest rate
is hypothetical and only intended to serve as an illustrative example. The Postal Service would need to ensure that
rates and other conditions for loans or advances comply with all applicable laws and regulations.
49
   Pew Charitable Trusts, Payday Lending in America: Who Borrows, Where They Borrow, and Why, p. 4.
50
   Ibid.

U.S. Postal Service Office of Inspector General                                                                  January 27, 2014
                                                              13
RARC-WP-14-007                                                        Providing Non-Bank Financial Services for the Underserved



Department’s offset program, which allows federal agencies to collect debts from the tax
refunds of debtors. 51 Because a high proportion of the “working poor” get tax refunds —
including many people who would be prospective Postal Loan borrowers — this
collateral could serve as a built-in insurance policy that would significantly reduce the
risk that Postal Loans would go unpaid. 52 While testing, experimentation, and review
would be required, this potential risk reduction could allow the Postal Service to offer
loans to otherwise high-risk borrowers at affordable rates.

There is a wide range of consumers who need access to small-dollar credit, and the
Postal Loan could strongly appeal to these different types of borrowers. For example,
people whose income varies throughout the year, consumers with no other avenues to
credit, families with unexpected expenses, and others. In addition, because of the
unique strengths and capabilities of the Postal Service, the Postal Loan would likely
meet key criteria for being a high quality loan, such as affordability, transparency, fair
pricing, a structure that does not depend on repeat borrowing, and helping customers to
build up their credit. 53

To help fund credit products, the Postal Service could rely on partnerships with banks or
other institutions, which could hold Postal Loans on their books.

Postal Financial Services Would Have Clear Benefits
Were the Postal Service to expand its financial services offerings, there would be three
key beneficiaries: the American public (especially the underserved), the financial
services community, and the Postal Service itself.

Benefits for the Public
For the most vulnerable Americans — including many of the
underserved — the difference between making it and not is a                                  On average,
small amount of money. Among the 1.1 million people who                                      Americans who fell
filed for personal bankruptcy in 2012, their median average                                  into bankruptcy in
income of $2,743 a month was just $26 less than their median                                 2012 were only $26
                                                                                             a month away from
average monthly expenses. 54 Put another way, these people
                                                                                             staying afloat.
were just $26 a month away from making ends meet.


51
   Specific details about participation and implementation would need to be resolved.
52
   While the data are a bit murky (agencies report the numbers in somewhat different ways), it appears that the vast
majority of the working poor file federal tax returns. Using the wage percentile benchmarks for 820 occupations listed
in the Bureau of Labor Statistics’ May 2012 Occupational Employment Statistics survey, we calculate that there are
about 32 million employees, or about 25 percent of wage earners, who earn less than $25,000 per year. Internal
Revenue Service (IRS) data show that, among those reporting less than $25,000 a year in income, about 70 million
people filed a tax return in 2011. This includes people who did not earn a “wage,” but who still filed a return. Of this
group, 82 percent of filers got a refund averaging $1,562, according to the IRS.
53
   Nicholas Bianchi and Rob Levy, Center for Financial Services Innovation, Know Your Borrower: The Four Need
Cases of Small-Dollar Credit Consumers, December 2013,
http://www.cfsinnovation.com/CFSI_KnowYourBorrower.pdf p. 6.
54
   Administrative Office of the United States Courts, 2012 Report of Statistics Required by the Bankruptcy Abuse
Prevention and Consumer Protection Act of 2005, 2013,
http://www.uscourts.gov/uscourts/Statistics/BankruptcyStatistics/BAPCPA/2012/BAPCPA-report.pdf, p. 44.

U.S. Postal Service Office of Inspector General                                                               January 27, 2014
                                                          14
RARC-WP-14-007                                                      Providing Non-Bank Financial Services for the Underserved



As mentioned above, the Postal Loan product outlined in this paper could, by itself,
save the average payday loan borrower more than $100 a month in fees and interest.
With this kind of cost savings, users of postal financial services would have much more
financial security. If this helped decrease personal bankruptcies by just 5 percent, it
would not only help more than 50,000 people a year avoid the lasting stigma and
financial effects of bankruptcy, it also would potentially keep some $10 billion a year in
loans and other debts from being dragged through bankruptcy court, where much of it
would be canceled at tremendous expense to creditors (most of whom are financial
institutions). 55 That would be good for American families, for banks, and for the entire
country.

Because the underserved tend to spend nearly every penny they make, any money they
save by using Postal Service financial products would immediately go back into the
economy. They would spend it on groceries, gasoline, utilities, medical bills, and
entertainment. Businesses small and large would benefit.

Benefits for the Financial Services Community
To be clear, the Postal Service should not aim to take customers away from mainstream
banks and credit unions. To the contrary, the mainstream financial services community
would be a beneficiary of a successful suite of postal financial services and products for
three key reasons: partnerships, payments, and new customers. Moreover, the target
market for postal financial services consists of people who are not currently a major
focus of banks. In fact, cooperating with trusted nonfinancial entities helps financial
institutions reach more low-income consumers. 56

Partnerships: The Postal Service would rely on the financial sector to provide the back-
end for some of these services, including providing Postal Cards, setting up and
managing web and mobile access, servicing the accounts and loans, and possibly
funding and holding the loans on their balance sheets. This could add up to substantial
new revenue for the Postal Service’s financial institution partners.

Payments: When people fall off the financial cliff, they
typically stop paying many of their bills, including their  Postal financial services
credit cards, auto loans, and mortgages. If the Postal      could result in millions of
                                                            new customers and
Service’s financial services initiative were to succeed, a
                                                            tremendous revenue for
key outcome would be that the underserved would             banks that partner with
stumble far less often. That means they could continue      the Postal Service.
making payments to the bank. For example, Internal
Revenue Service figures show that in 2011, individual taxpayers reported $6.7 billion in
canceled debt from foreclosure, repossessions, and the like. 57 If just 5 percent of this
canceled debt was avoided, it could help lenders save some $335 million a year in

55
   Based on $208 billion in discharged personal bankruptcy debts in 2012. Ibid., p. 28.
56
   CFPB, Empowering Low Income and Economically Vulnerable Consumers, p. 32.
57
   IRS Individual Statistical Tables, Table 2.1 Returns with Itemized Deductions: Sources of Income, Adjustments,
Itemized Deductions by Type, Exemptions, and Tax Items, by Size of Adjusted Gross Income, Tax Year 2011,
http://www.irs.gov/file_source/pub/irs-soi/11in21id.xls.

U.S. Postal Service Office of Inspector General                                                             January 27, 2014
                                                         15
RARC-WP-14-007                                                  Providing Non-Bank Financial Services for the Underserved



write-offs — not to mention countless other millions of dollars in collection costs and
legal and administrative fees.

New customers: Postal financial services could help bring financial stability to many
families. As the underserved become more financially stable, they will be in a better
position to pay off past debts and clean up their credit histories. As their credit improves,
some of them could graduate to fully banked status, qualifying for mainstream checking
and savings accounts, credit cards, auto loans, and home mortgages. In short, postal
financial services could help create more full-fledged customers for banks.

Benefits for the Postal Service
                                                                       Figure 7: The Growth of the
Financial services are hugely profitable for postal                       Underserved Market
organizations around the world. Whether using a
fully chartered “postal bank” or partnering with                   A GROWING MARKET
private institutions, postal financial services                    The underserved paid $89 billion in
account for a major portion of postal profits and                  financial fees and interest in 2012,
                                                                   and projections suggest the market
revenue in many countries. For more on the
                                                                   may have topped $95 billion in 2013.
financial services offerings of foreign posts,                     As the market grows, it represents an
please see Appendix C.                                             ever-greater opportunity for the
                                                                   Postal Service.
To get a ballpark figure, one can look at revenues
in terms of the size of the alternative financial                        Fees and interest, in billions
services market in the United States. If 10                                                              $95
                                                                                         $89
percent of the $89 billion spent on alternative                          $82
financial services was instead spent at the Postal
Service, it could bring in $8.9 billion a year. That
amount would be in line with the results seen by
other industrialized countries. In 2012, postal
financial services made up an average of 14.5
percent of their total revenue. For the U.S. Postal
Service, that percentage would translate to $9.5
billion in additional revenue. 58 In addition, the
alternative financial services market is expected
to continue growing in the coming years, and is
“ripe for innovation.” 59                                               2011            2012           *2013
                                                                  *Projected
As an alternative to high-level estimates for an     Source: CFSI 2012 Financially
overall suite of financial services, one can look at          Underserved Market Size
potential revenue through estimates of what                   Study.
individual products or services could bring in.
Consider prepaid cards, for example. The fees they generate can vary widely,
depending on a customer’s particular habits. A study by the Pew Charitable Trusts

58
   Based on 2012 operating revenue of $65.2 billion,
http://www.prc.gov/Docs/85/85646/2012_USPS_%20FORM_10K_FINAL.pdf.
59
   Eva Wolkowitz, “2012 Financially Underserved Market Size Study,” CFSI landing page, December 2013,
http://www.cfsinnovation.com/content/2012-financially-underserved-market-sizing-study.

U.S. Postal Service Office of Inspector General                                                         January 27, 2014
                                                      16
RARC-WP-14-007                                                   Providing Non-Bank Financial Services for the Underserved



showed that inexperienced consumers, who make heavy use of prepaid card services
without regard for fees, spend a median of $32.60 a month on prepaid card fees,
including monthly service charges, ATMs, retail purchases, and other fees. Consumers
who take more care to avoid fees can pay significantly less. 60 The Postal Card could
come with fewer and lower fees than others, bringing in an average of, perhaps, $15 a
month in fee revenue per consumer. At that rate, if 10 percent of the 68 million
underserved Americans used the Postal Card, the card alone would bring in $1.2 billion
a year in revenue.

Financial services also could help maintain the viability of the Postal Service’s retail
network.

Strategic Considerations for the Postal Service
In order to expand its presence in the financial services market, the Postal Service
needs a solid strategy, based, in part, on some of the lessons learned from international
posts, the banking industry, and others. We offer here some considerations for the
Postal Service on how it could lay the groundwork for an effective suite of postal
financial services. This work is not in any way intended to be a business plan, which
would be necessary for the Postal Service to closely examine the potential costs,
revenue, and other details for any new services. The Postal Service also should
consider creating a dedicated group — perhaps consisting of experienced financial
sector executives — to research, implement, and manage financial products and
services.

Timing is a Critical Factor
The Postal Service should carefully consider the timing with which it introduces any new
postal financial services. Some types of products or services may require relatively
lengthy development and rollout periods. However, a quick victory or two could help
garner stakeholder support for implementing additional postal financial services.

Electronic payment products like Postal Cards might be
a wise entry point, and would expand upon existing
                                                                              Pilot tests in targeted
services like paper money orders. These types of                              areas could prove the
services could immediately result in increased foot                           value of postal financial
traffic and new revenue. And to the extent that these                         services. A quick victory
services are expansions of existing offerings, the                            or two could help gain
changes required within the Postal Service would be                           support for additional
minimal compared to more complex financial services.                          services in the future.
Moreover, these services could build off the Postal
Service’s current network and infrastructure.



60
  Pew Charitable Trusts, Loaded with Uncertainty: Are Prepaid Cards a Smart Alternative to Checking Accounts?,
September 2012, http://www.pewstates.org/uploadedFiles/PCS_Assets/2012/Prepaid_Checking_report.pdf, pp. 18-
20.

U.S. Postal Service Office of Inspector General                                                          January 27, 2014
                                                      17
RARC-WP-14-007                                          Providing Non-Bank Financial Services for the Underserved



It may be best for the Postal Service to introduce products through pilot programs or
market tests in a small number of Post Offices in select geographic areas. If the new
services are successful in these limited tests, the Postal Service could expand the
offering to include additional Post Offices and locations. Some products might have
ready-made target audiences in certain locations, such as areas with large immigrant
communities.

Consider Partnerships with the Private Sector
The Postal Service could create a “win-win” situation by partnering with banks and other
organizations to provide financial products and services to new customers. Postal
financial services could complement the current offerings from banks by helping banks
reach customers in new geographic areas, by offering products to customers who were
not previously a main focus of banks, and by helping some customers transition to
traditional savings or checking accounts. Moreover, a partnership would highlight what
each partner brings to the table. The Postal Service offers trust, a vast physical network,
and other critical assets. Banks offer reliability, expertise, and competence when it
comes to financial transactions. They also could provide valuable knowledge that could
help the Postal Service structure new offerings. The end results could be new services
for customers, more revenue for banks, and an easier way for the Postal Service to
expand its presence in the financial services market. In addition, the right partners could
bring much needed startup cash to the table as part of the deal, overcoming the Postal
Service’s current funding limitations.

To start, the Postal Service should identify which financial products and services would
best be offered through partnerships. Some partnerships might be most effective if they
included multiple banks or other institutions. Different products will likely call for different
partners as well, based on the needs of the potential customers and the service gap the
partners are trying to fill. One important note of caution: the Postal Service should be
very mindful to ensure that no partnership damages its reputation. The level of trust the
Postal Service has earned from the public is an unmatched asset, and one that should
not be jeopardized.

Identify and Understand Key Customers
Although some financial products and services offered by the Postal Service could
appeal to segments of the broader market, most of these offerings would be especially
attractive to the underserved. As discussed above, the underserved have a wide range
of needs and characteristics. Understanding the varying needs of different customers
will be crucial for postal financial services to succeed. For example, some services may
appeal to young consumers or those who are not native English speakers. As such,
marketing toward these consumers should be designed so that it addresses their
specific needs and clearly signals that the Postal Service and its partners are listening
to what these consumers want. The FDIC’s surveys of banks on their efforts to reach
the underserved could provide useful tips on how best to serve specific customer
segments. 61 In addition, many alternative financial services providers have been highly

61
     See http://www.fdic.gov/unbankedsurveys/.

U.S. Postal Service Office of Inspector General                                                 January 27, 2014
                                                  18
RARC-WP-14-007                                                      Providing Non-Bank Financial Services for the Underserved



successful in reaching underserved markets, and their success stories could provide
useful lessons.

Monitor and Respond to Emerging Trends
The market is changing rapidly and the Postal Service should keep an eye on key
trends to ensure that it positions itself effectively to meet a variety of potential future
scenarios. Depending on the outcomes of these trends, the Postal Service could either
be well positioned or scrambling to catch up.

Cashless Economy and Mobile Banking
The United States is moving toward a cashless economy. A 2012 Rasmussen Reports
poll confirmed Americans’ dwindling reliance on physical currency: 43 percent had gone
a full week without paying for anything with cash or coins. 62 A suite of financial services
and products would help the Postal Service to meet the needs of customers in this
increasingly cashless economy and allow it to adapt in a rapidly evolving market.

Even with the rush to adopt cashless payment options, one
big question remains: what will happen to the underserved       We are living in an
in this cashless economy? People without access to              increasingly
payment cards cannot participate in e-commerce or other         cashless economy.
                                                                The Postal Service
aspects of the digital economy. Many of the underserved
                                                                can help the
— especially those who are unbanked — prefer or are             underserved
confined to using cash for nearly all of their transactions.    function in this new
For these consumers, the Postal Service could provide           landscape.
easy and convenient ways for them to convert their cash to
digital currency or other electronic payment methods. And
it is not just the underserved who are sticking to cash; some young Americans choose
to use cash because they want to avoid taking on debt. 63 In addition, many businesses
have stopped even accepting credit cards after banks increased the fees associated
with processing transactions. 64 These large increases in fees may be especially
challenging in struggling communities, where businesses may have difficulty passing
the costs along to their customers.

Related to the rise of a cashless economy is the growth of mobile banking, which is
fueled by the spread of smartphones. According to Federal Reserve research, 59
percent of the unbanked and 90 percent of the underbanked have a mobile phone,
roughly half of which are smartphones. Moreover, 49 percent of underbanked
consumers reported using mobile banking in the past 12 months. 65

62
   Sarah Todd, “Got Cash? Not for Long.,” American Institute for Economic Research, June 14, 2012,
https://www.aier.org/article/7672-got-cash-not-long.
63
   Rachel Sapin, “Credit-shy: Younger generation is more likely to stick to a cash-only policy,” Denver Post, August
26, 2013, http://www.denverpost.com/styleheadlines/ci_23929523/credit-shy-younger-generation-stick-cash-only-
policy.
64
   David Lazarus, “Some merchants stop taking credit cards because of high fees,” Los Angeles Times, July 1, 2011,
http://articles.latimes.com/print/2011/jul/01/business/la-fi-lazarus-20110701.
65
   Board of Governors of the Federal Reserve System, Consumers and Mobile Financial Services 2013, March 2013,
http://www.federalreserve.gov/econresdata/consumers-and-mobile-financial-services-report-201303.pdf, p. 2.

U.S. Postal Service Office of Inspector General                                                             January 27, 2014
                                                        19
RARC-WP-14-007                                                       Providing Non-Bank Financial Services for the Underserved



Adapting to New Financial Regulations
New regulations could alter the financial services landscape and potentially lead to an
increase in the number of customers looking for new solutions. The 2010 Dodd–Frank
Wall Street Reform and Consumer Protection Act was seen as the most far-reaching
piece of legislation in the financial sector since 1933’s Glass–Steagall Act. However,
only about half of the hundreds of provisions required under Dodd-Frank have taken
effect. 66 One of the completed results of Dodd-Frank is the establishment of the
Consumer Financial Protection Bureau (CFPB). Among other things, the CFPB has
regulatory authority over many non-bank financial institutions, such as payday lenders.
These institutions were not previously subject to such federal regulatory control.

These regulatory developments could affect the Postal Service in at least two ways.
First, they could directly affect existing and potential financial products and services
offered by the Postal Service. Second, there could be a role for the Postal Service to
play in helping banks and other institutions to comply with regulations. For example, the
Postal Service might explore whether banks that partner with it could earn credit toward
fulfilling their requirements under the 1977 Community Reinvestment Act to meet the
credit needs of the communities where they operate. 67 This might be especially helpful
for community or local institutions that have fewer resources to dedicate to ensuring
compliance with new and changing regulations.

The UPU International Financial System Might Offer Advantages
Another possible way for the Postal Service to expand its financial services offerings
could be joining the International Financial System (IFS) of the Universal Postal Union
(UPU). The IFS is a software application developed by the UPU for the secure and
expedient electronic transfer of international and domestic money orders. It supports a
variety of fund transfer services, including cash and account-based money orders, and
urgent wire transfers. Currently, the IFS network includes postal operators in at least 60
                                    countries. 68 By using this platform, global posts can
  The UPU’s International           avoid developing their own system for such payments,
  Financial System could be         which could result in shorter implementation time and
  an effective and low-cost         lower costs.
     way for the Postal Service
     to offer new electronic                      There is a huge market opportunity for secure
     money transfers.                             international money transfers in the United States:
                                                  migrant remittance outflows in the United States grew


66
   U.S. Government Accountability Office, Financial Regulatory Reform: Regulators Have Faced Challenges
Finalizing Key Reforms and Unaddressed Areas Pose Potential Risks, Report to Congressional Addressees No.
GAO-13-195, January 2013, http://www.gao.gov/assets/660/651401.pdf, p. 5.
67
   Federal Reserve, About the Community Reinvestment Act,
http://www.federalreserve.gov/communitydev/cra_about.htm.
68
   UPU, Electronic Money Order, http://www.ptc.upu.int/ps/ifs.shtml, and Bishar A. Hussein, Director General for the
UPU, “Opening address to the Postal financial services conference, Paris, France,” February 28, 2013
http://actualites.upu.int/actualites/discours/upu-la-poste-conference/. According to UPU officials we spoke with, the
UPU is currently working on integrating additional features able to support mobile and e-commerce payments.
Personal communications, July through October 2013.

U.S. Postal Service Office of Inspector General                                                              January 27, 2014
                                                           20
RARC-WP-14-007                                                     Providing Non-Bank Financial Services for the Underserved



from $35 billion in 2000 to more than $51 billion in 2012. 69 The IFS could provide the
opportunity for the Postal Service to offer new channels for international money
transfers — beyond just paper money orders and the Dinero Seguro service — and
expand the geographical reach of its money transfers. In addition, the IFS could provide
a safer and faster digital alternative to domestic and international paper money orders,
without requiring the Postal Service to be responsible for the back-end operations.
There is a growing need for ways to send money abroad, and the Postal Service could
play a much bigger role in helping to fulfill that need.

As with any new endeavor, there are implementation considerations. The Postal Service
would need to make sure that the IFS complies with all necessary laws and regulations,
and that the service could be offered profitably without slowing down transactions. Even
though the Postal Service has previously looked into the IFS and decided not to
implement it, times have changed. A fresh look may be in order. Among the many
reasons, the IFS might help the Postal Service to serve a quickly growing population in
the United States: foreign-born individuals. 70 Between 2000 and 2011, the foreign-born
population grew from 31.1 million to 40.4 million. 71 The Postal Service’s participation in
the IFS could be valuable as this number continues to grow.

Conclusion
Underserved Americans need financial services that work for them, especially in today’s
tough economy. The Postal Service is in an excellent and, in some ways, unmatched
position to meet these citizens’ needs. A suite of non-bank financial services offered
through the Postal Service — available online, through mobile devices, and at Post
Offices in every community — could greatly benefit families everywhere. Postal financial
services could help American families to save money through avoiding exorbitant fees
and interest. This would make it easier for these families to pay their bills on time, build
up a more comfortable level of savings, and spend their money in better ways — which
would benefit the economy overall. And someday, many of these same families might
be able to open a traditional bank savings or checking account. In addition, as shown by
postal organizations all across the globe, moving into financial services has been the
best way for posts to shore up their retail networks and find new revenue. As the Postal
Service continues to look for new ways to serve the citizens of the 21st century, non-
bank financial services may be the “killer app” for diversifying its revenue base.




69
   World Bank, Migrant Remittance Outflows, 2013,
http://siteresources.worldbank.org/INTPROSPECTS/Resources/334934-
1288990760745/RemittanceData_Outflows_Oct2013.xls.
70
   The Bureau of Labor Statistics defines foreign-born persons as “persons who reside in the United States but who
were born outside the country or one of its outlying areas to parents who were not U.S. citizens. The foreign born
include legally-admitted immigrants, refugees, temporary residents such as students and temporary workers, and
undocumented immigrants.” For more information, see http://www.bls.gov/news.release/pdf/forbrn.pdf.
71
   Pew Hispanic Center, Statistical Portrait of the Foreign-Born Population in the United States, 2011, 2013,
http://www.pewhispanic.org/files/2013/01/PHC-2011-FB-Stat-Profiles.xlsx.

U.S. Postal Service Office of Inspector General                                                            January 27, 2014
                                                        21
RARC-WP-14-007                                                        Providing Non-Bank Financial Services for the Underserved



Appendix A The Postal Savings System
The History of the Postal Savings System
The Post Office Department offered savings accounts for decades, from the early 20th
century until the late 1960s. The system found a niche among immigrant populations
and provided readily available access to basic financial products for all Americans.
However, interest waned over the decades of its operation, eventually leading Congress
to discontinue the program.

Origins and Design
From 1911 to 1967, the Postal Savings System gave people the opportunity to make
savings deposits at designated Post Offices nationwide. In establishing the system,
Congress intended to encourage people to save their money in banks rather than under
their mattresses, bring in savings from immigrants who may have used post offices for
savings in their native counties, provide for a safe place for individuals to deposit their
money, and create a deposits system that was more convenient for the public. Initial
banking industry opposition to the system turned into support when bankers realized
that the system was successfully drawing in a lot of money that used to be stored away
in cookie jars and other hidden places. 72

To minimize competition with banks, deposits were limited to $500 and the interest rate
to 2 percent. Deposited funds were to be funneled to local banks, which would pay a
2.25 percent interest rate for the money — considerably less than the 3.5 percent that
most banks were paying for deposits at that time, and lower than the interest paid to
depositors by any other post in the world. 73 Because banks would use the postal
deposits to fund loans to local consumers and businesses, the economic benefits of
those deposits stayed with local communities. Banks found they had little reason to
oppose an institution providing them a source of cheap money, so not much controversy
surrounded increases in deposit limits to $1,000 in 1916 and $2,500 in 1918. The 2
percent interest rate for depositors was never changed, but the 2.25 percent rate paid
by banks to the Postal Savings System was raised to 2.5 percent in 1934. 74

Growth and Decline
Throughout the decades of its operation, the Postal Savings System had its ups and
downs in popularity. Deposits grew slowly for the first 20 years, and throughout that
period never amounted to more than 1 percent of the total amount in savings and time
accounts in the banking system. The situation changed in the 1930s, when many banks
failed during the Great Depression, and the Postal Savings System was perceived as

72
   U.S. Postal Service, Postal Savings System.
73
   Patricia Hagan Kuwayama, “Postal Banking in the United States and Japan: A Comparative Analysis,” Monetary
and Economic Studies, May, 2000, http://www.imes.boj.or.jp/research/papers/english/me18-1-3.pdf, p. 78. For
example, the United Kingdom paid 2.5 percent; Canada, Austria, and Hungary paid 3 percent; and Japan paid 4.2
percent in tax-free interest, although in general interest rates were higher in the United States than in any of these
countries. E.W. Kemmerer, “The United States Postal Savings Bank,” Political Science Quarterly, vol. 26, no.3,
September, 1911, p. 485.
74
   Patricia Hagan Kuwayama, “Postal Banking in the United States and Japan: A Comparative Analysis,” p. 78.

U.S. Postal Service Office of Inspector General                                                               January 27, 2014
                                                           22
RARC-WP-14-007                                                    Providing Non-Bank Financial Services for the Underserved



uniquely safe and reliable before the government established bank deposit insurance. A
second surge in deposits came in the 1940s, when the 2 percent interest paid by the
postal system to depositors was higher than the rates banks were paying. 75 The system
hit its peak in 1947 with nearly $3.4 billion in savings deposits from more than 4 million
customers using more than 8,100 postal units. 76

Usage of the Postal Savings System dropped over the next couple of decades due to
several factors, including increased interest rates from traditional retail banks for
savings deposits. As explained in the Postal Service’s official history: “after the war,
banks raised their interest rates and began offering the same governmental guarantee
as the Postal Savings System. In addition, United States savings bonds gave higher
interest rates. Deposits in the Postal Savings System declined, dropping to $416 million
by 1964.”77 The Postal Savings System ended on July 1, 1967. 78

Who Used It?
One particularly interesting fact about the Postal Savings System was its popularity
among recent immigrants to the United States during the early 20th century. These
immigrants embraced the system much more than non-immigrants. For example, in
1915, fully 71.8 percent of the total deposits in the system belonged to foreign-born
immigrants, even though they were only 14.3 percent of the overall U.S. population. 79
The statistics are particularly stark when considered on a per capita basis. For example,
Americans overall held an average of just 23 cents each in postal deposits in 1915,
while Greek immigrants had an average of $11.70 and Russian immigrants (who held a
fifth of all postal deposits) had an average of $7.85 each. 80 One reason immigrants from
southern and eastern Europe were partial to the Postal Savings System was the well–
publicized problems of informal “immigrant banks” that depended on cultural ties but
often proved dishonest. 81




75
   Ibid., p. 82.
76
   U.S. Postal Service, Postal Savings System.
77
   U.S. Postal Service, The United States Postal Service: An American History 1775-2006, November 2012,
https://about.usps.com/publications/pub100.pdf, p. 29.
78
   Ibid.
79
   Patricia Hagan Kuwayama, “Postal Banking in the United States and Japan: A Comparative Analysis,” p. 80.
80
   Ibid.
81
   Ibid., pp. 80-81.

U.S. Postal Service Office of Inspector General                                                           January 27, 2014
                                                       23
RARC-WP-14-007                                                              Providing Non-Bank Financial Services for the Underserved




Appendix B Examples of Postal Financial Services
The following table provides examples of postal financial services that might be
considered by the Postal Service and its stakeholders.

                                  Table 1: Examples of Postal Financial Services

                   Service                                                    Description

                                                  The facilitation of e-commerce payments for the underserved,
                                                  both domestic and cross-border. These payment methods could
   E-commerce payments
                                                  include credit cards, direct debit, mobile payments, wire transfers,
                                                  and other payments.
                                                  Bills currently paid in cash at payday loan centers, retailers, and
   Bill payments
                                                  other locations.
   Government-to-citizen                          Payments made by government agencies to the unbanked by
   payments                                       means other than direct deposit or prepaid cards.
                                                  Prepaid cards that can only be used at certain locations, such as
   Closed-loop prepaid cards
                                                  gift cards for a specific store or group of stores.
                                                  Prepaid cards with a network logo (Visa, MasterCard, American
   Open-loop reloadable                           Express, or Discover) and which can be used at any location that
   prepaid cards                                  accepts that brand. Some of these cards have additional features,
                                                  such as direct deposits or a link to a savings account.
                                                  Use of mobile devices as a specific payment mechanism or as a
   Mobile financial services
                                                  channel of access to bank accounts.

   Check cashing                                  The cashing of underserved customers' checks for a fee.

                                                  Encouraging customers to build up savings, possibly through
   Savings
                                                  savings features on prepaid cards.
                                                  Identity authentication services for citizens, businesses, and
                                                  financial institutions. This could include identity authentication
   Identity authentication                        features embedded into a Postal prepaid card, which would
                                                  increase security and privacy in digital and physical transactions
                                                  in support of e-commerce growth.*
                                                  Providing information on financial literacy, counseling, education,
   Financial literacy
                                                  and other topics for the benefit of underserved consumers.
 Source: Decision/Analysis Partners analysis provided to USPS OIG.

 *Note: For more information, see U.S. Postal Service Office of Inspector General, Digital Identity: Opportunities
  for the Postal Service, RARC-WP-12-011, http://www.uspsoig.gov/sites/default/files/document-library-
  files/2013/RARC-WP-12-011.pdf.




U.S. Postal Service Office of Inspector General                                                                     January 27, 2014
                                                                 24
RARC-WP-14-007                                                   Providing Non-Bank Financial Services for the Underserved



Appendix C Lessons Learned from International
           Posts
Many international posts are already providing financial services, through which they
have found new ways to meet customer needs and bring in additional revenue.
Although there is no “one size fits all” model for introducing postal financial services,
due to differences between countries and posts, there are common success factors and
                                                        implementation strategies across
   Figure 8: Financial Services at Foreign Posts        multiple postal operators. Figure 8
                                                        shows the earnings obtained by
 FINANCIAL SERVICES DRIVE                               several industrialized countries
                                                        through postal financial services.
 EARNINGS AT FOREIGN POSTS
 For many posts abroad, financial services account               International Posts Are
 for a large portion of sales and profits.
                                                                 Succeeding at Financial
                                                                 Services
     Country                     Financial services earnings
  Switzerland                                         In March 2013, the UPU issued a
                                 71% of operating profits
  New Zealand                    70% of profits
                                                      report on the state of postal
                                                      financial services development
  Italy                          67% of profits
                                                      around the world (139 countries)
  France                         36% of pre-tax earnings
                                                      and the role of postal operators in
  United Kingdom                 25% of sales         financial inclusion. 82 The UPU found
 Payday                                               that posts are key players in
 Source: Canadian Centre for Policy Alternatives, Why advancing financial inclusion in
         Canada Needs Postal Banking.
                                                      most of its member countries,
                                                      second only to banks. 83 In addition,
the UPU found that postal operators around the world often use their nationwide
infrastructures to help ensure success for postal financial services. These vast footprints
allow posts to maintain high volume and easy access for customers. Moreover, foreign
posts are often already deeply integrated into community life. 84

The UPU found that the business models adopted by postal operators for financial
services varied widely. They ranged from relatively basic arrangements, like rental of
post office space or offering simple transactional services, to more complex
arrangements like transforming postal operators into full-fledged postal banks. 85 Many
postal operators followed more than one business models, and often retained basic
models while progressing to more complex models.




82
   Alexandre Berthaud and Gisela Davico, Global Panorama on Postal Financial Inclusion: Business Models and Key
Issues.
83
   Ibid., p. 9.
84
   Ibid, p. 7.
85
   Ibid., pp. 9, 83.

U.S. Postal Service Office of Inspector General                                                          January 27, 2014
                                                            25
RARC-WP-14-007                                                        Providing Non-Bank Financial Services for the Underserved



The UPU also identified 10 common factors that have been critical to the success of
postal financial services across the globe. 86 Table 2 lists these success factors.

                       Table 2: How Have Posts Made Financial Services Successful?

                     Success Factor                                 What Leads to Success?

                                                  Does the network reach all across the country, including
     Network                                      urban and rural areas? Are the different points in the network
                                                  well connected?
                                                  Are staff properly trained? Are they computer literate? Do
     Staff
                                                  they offer high-quality customer service?
                                                  Does the post have the resources to invest in upgrading its
     Financial capacity                           systems and training its staff? Is there enough cash moving
                                                  through the network to cover financial transactions?
                                                  Does the public trust the post? Does the post earn and
     Trust
                                                  maintain this level of trust?
                                                  Are there processes to guide critical functions, such as how
     Automation and process                       much cash is in post office drawers and how often the cash
     integration                                  should be replenished? Does the post have the right
                                                  information technology?
     Willingness to foster financial              Is there popular support behind using the post as a means to
     inclusion                                    enhance financial inclusion?
                                                  Is there an effective system in place to govern the
     Governance between the post and              relationship between the post and its postal financial
     postal financial services                    services? Is it clear whether the postal financial services will
                                                  be a part of the post or completely independent of the post?
                                                  Is the post authorized to provide financial services, or to form
                                                  partnerships with banks? Does the post have access to
     Legal and regulatory framework
                                                  national payment systems? Can the post issue forms of
                                                  electronic money?
                                                  Can the post effectively promote its products and brand?
     Marketing
                                                  Does it understand its customers’ needs?
                                                  Does the post offer convenient hours of operation? Can
     Flexibility                                  customers get services close to home? Can the post adapt
                                                  to customers’ changing needs?
Source: Alexandre Berthaud and Gisela Davico, Global Panorama on Postal Financial Inclusion: Business
       Models and Key Issues, UPU, March 2013.

Implementation Strategies of International Posts
One of the experts we contracted to research this project has real-life experience in
assisting postal operators to implement financial services. That expert also identified
success factors for international posts engaged in financial services. He found that one
of the posts’ main strengths is their ability to reach out to a mass market, including low-
income and unbanked consumers. These consumers are typically not served by major
86
     Ibid., p. 10.

U.S. Postal Service Office of Inspector General                                                               January 27, 2014
                                                           26
RARC-WP-14-007                                                      Providing Non-Bank Financial Services for the Underserved



banks, and the consumers often feel uncomfortable in the environment of a traditional
bank branch. In addition, our expert found that international posts succeed at financial
services when they engage in effective marketing campaigns and excel at dealing with
consumers from a wide range of cultural backgrounds.

Research has shown that postal financial services have
resulted in significant revenues for some international                           International posts
posts, at the same time as revenue from other sources                             have used their
has continued to decline. 87 This can help to maintain the                        ubiquitous networks
                                                                                  and ability to reach
vitality of postal networks. However, implementation is
                                                                                  many different types of
not as easy as flipping a switch. International posts used                        consumers to succeed
different implementation strategies to help ensure that                           at financial services.
their financial services were successful, including the
following:

          Successful financial services complemented the established banking sector,
           rather than openly competed with it. 88 In part, this has been done by focusing on
           niches that traditional banks generally do not prioritize.

          A diverse suite of financial services will help bring in additional customers, and
           can boost the viability of individual products or services that have a natural
           market but might not be profitable if offered on their own.

          Forming partnerships with established financial institutions lets posts focus and
           capitalize on their unique strengths, capabilities, and experience.

          While financial products and services may be best managed by a licensed,
           regulated bank partner, the operations should be overseen by a dedicated unit
           inside the post.

          Transparency and accountability over fees, processes, and other critical aspects
           of financial services help posts to make their offerings appeal to customers who
           might be wary of doing business with some traditional banks.

          The positive reputation and public trust associated with posts are crucial to the
           success of postal financial services.

          It is essential to understand the various needs of different consumer segments,
           such as mass market customers versus the underbanked.




87
     Canadian Center for Policy Alternatives, Why Canada Needs Postal Banking, p. 10.
88
     Decision/Analysis Partners analysis provided to USPS OIG.

U.S. Postal Service Office of Inspector General                                                             January 27, 2014
                                                         27
RARC-WP-14-007                                                      Providing Non-Bank Financial Services for the Underserved




                                    U.S. Postal Service Office of Inspector General
                                                 1735 N. Lynn Street
                                                 Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                     For media inquiries, contact Agapi Doulaveris
                                             Telephone: 703-248-2286
                                              adoulaveris@uspsoig.gov



U.S. Postal Service Office of Inspector General                                                             January 27, 2014
